Audit Report




OIG-12-002

Audit of the United Sta
                      ates Mint’ss Schedule
                                          e of
Cu
 ustodial Deeep Storage Gold andd Silver Resserves
as
 s of Septem
           mber 30, 2011 and 2010

October 21, 2011




Office of
In
 nspec
     ctor Genera
               al
Departm
      ment of the Tre
                    easury
                                    DEPARTMENT OF THE TREASURY
                                         W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL                           October 21, 2011


          MEMORANDUM FOR RICHARD A. PETERSON, DEPUTY DIRECTOR
                         UNITED STATES MINT

          FROM:                Michael Fitzgerald
                               Director, Financial Audits

          SUBJECT:             Audit of the United States Mint’s Schedule of
                               Custodial Deep Storage Gold and Silver Reserves as of
                               September 30, 2011 and 2010

          The attached report presents the results of our audits of the United States Mint’s
          (Mint) Schedule of Custodial Deep Storage Gold and Silver Reserves (Custodial
          Schedule) as of September 30, 2011 and 2010. The Custodial Schedule is the
          responsibility of the Mint. We conducted our audits in accordance with Government
          Auditing Standards, issued by the Comptroller General of the United States.

          We rendered an unqualified opinion on the Custodial Schedule as of
          September 30, 2011 and 2010. Our audits identified no material weaknesses related
          to internal control over financial reporting, and no instances of reportable
          noncompliance with laws and regulations.

          The results of our audits will be used by KPMG LLP, an independent public
          accountant, who is performing the audits of the Mint’s Fiscal Years 2011 and 2010
          financial statements. In addition, copies of our report are being provided to the
          Secretary of the Treasury, the Treasurer of the United States, and the Department of
          the Treasury’s Chief Financial Officer.

          Your staff has reviewed our report, and agreed with our conclusions. Should you have
          any questions, please contact me at (202) 927-5789, or a member of your staff may
          contact Ade Bankole, Manager, Financial Audits at (202) 927-5329.

          Attachment
Contents



SECTION I - REPORT OF THE OFFICE OF INSPECTOR GENERAL

Independent Auditors’ Report ........................................................................1

   Management’s Responsibilities .........................................................................1

   Scope of Audits .............................................................................................1

   Results of Audits ............................................................................................3

       Opinion on the Custodial Schedule ...............................................................3

       Internal Control..........................................................................................3

       Compliance with Laws and Regulations ........................................................4


SECTION II - UNITED STATES MINT’S SCHEDULE OF CUSTODIAL
             DEEP STORAGE GOLD AND SILVER RESERVES
             AS OF SEPTEMBER 30, 2011 AND 2010

   Schedule of Custodial Deep Storage Gold and Silver Reserves .............................5

   Notes to the Schedule of Custodial Deep Storage
   Gold and Silver Reserves .................................................................................6


APPENDICES

   Appendix 1:          Major Contributors to this Report ...............................................8

   Appendix 2:          Report Distribution ...................................................................9




                        Audit of the United States Mint’s Schedule of Custodial Deep Storage                Page i
                        Gold and Silver Reserves as of September 30, 2011 and 2010
                        (OIG-12-002)
               SECTION I -


REPORT OF THE OFFICE OF INSPECTOR GENERAL
                                                              Report of the
OIG                                                         Office of Inspector
                                                                  General
The Department of the Treasury
Office of Inspector General


                          Independent Auditors’ Report

                  To the Director of the United States Mint:

                  We have audited the accompanying Schedule of Custodial Deep
                  Storage Gold and Silver Reserves (Custodial Schedule) of the
                  United States Mint (Mint) as of September 30, 2011 and 2010.
                  This report presents our unqualified opinion on these Custodial
                  Schedules. Our audits disclosed no material weaknesses and no
                  instances of reportable noncompliance with laws and regulations.


Management’s Responsibilities
                  Management is responsible for: (1) preparing the Custodial
                  Schedule in conformity with U.S. generally accepted accounting
                  principles; (2) establishing and maintaining internal control; and
                  (3) complying with laws and regulations applicable to the Mint’s
                  custodial responsibilities for the Deep Storage Gold and Silver
                  Reserves.


Scope of Audits
                  We conducted our audits in accordance with Government Auditing
                  Standards, issued by the Comptroller General of the United States.
                  Those standards require that we plan and perform the audits to
                  obtain reasonable assurance about whether the Custodial Schedule
                  is free of material misstatement. An audit includes examining, on a
                  test basis, evidence supporting the amounts and disclosures in the
                  Custodial Schedule. An audit also includes assessing the
                  accounting principles used and significant estimates made by
                  management, as well as evaluating the overall Custodial Schedule


                  Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 1
                  Gold and Silver Reserves as of September 30, 2011 and 2010
                  (OIG-12-002)
presentation. Our responsibility is to express an opinion on the
Custodial Schedule based on our audits. We are also responsible
for obtaining a sufficient understanding of internal control over
financial reporting to plan the audits, and to test certain provisions
of laws and regulations that have a direct and material effect on
the Custodial Schedule. We believe that our audits provide a
reasonable basis for our opinion and our conclusions on internal
control and compliance with laws and regulations.

In planning and performing our audit, we considered the Mint’s
internal control over financial reporting related to the Custodial
Schedule as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the Custodial Schedule, but
not for the purpose of expressing an opinion on the effectiveness
of the Mint’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of the Mint’s
internal control over financial reporting.

Because of limitations inherent in internal control, misstatements
due to error or fraud, losses, or noncompliance may nevertheless
occur and not be detected. We also caution that projecting our
evaluation to future periods is subject to the risk that controls may
become inadequate because of changes in conditions or that the
degree of compliance with controls may deteriorate. In addition, we
caution that our internal control testing may not be sufficient for
other purposes.

As part of obtaining reasonable assurance about whether the
Custodial Schedule is free of material misstatement, we performed
tests of the Mint’s compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and
material effect on the determination of Custodial Schedule
amounts. We limited our tests of compliance to those provisions
and we did not test compliance with all laws and regulations
applicable to the Mint. We caution that noncompliance may occur
and not be detected by those tests and that testing may not be
sufficient for other purposes. Providing an opinion on compliance
with laws and regulations was not an objective of our audit and,
accordingly, we do not express such an opinion.


Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 2
Gold and Silver Reserves as of September 30, 2011 and 2010
(OIG-12-002)
Results of Audits

Opinion on the Custodial Schedule

                   In our opinion, the accompanying Custodial Schedule presents
                   fairly, in all material respects, the balance of the United States’
                   Deep Storage Gold and Silver Reserves in the custody of the Mint
                   as of
                   September 30, 2011 and 2010, in conformity with U.S. generally
                   accepted accounting principles.



Internal Control

                   Internal control is a process, effected by those charged with
                   governance, management, and other personnel, designed to
                   provide reasonable assurance that the following objectives are
                   achieved:

                      •   Reliability of financial reporting - transactions are properly
                          recorded, processed, and summarized to permit the
                          preparation of the Custodial Schedule in accordance with
                          U.S. generally accepted accounting principles, and the
                          safeguarding of assets against loss from unauthorized
                          acquisition, use, or disposition;
                      •   Effectiveness and efficiency of operations; and
                      •   Compliance with applicable laws and regulations that could
                          have a direct and material effect on the Custodial Schedule.

                   A deficiency in internal control exists when the design or operation
                   of a control does not allow management or employees, in the
                   normal course of performing their assigned functions, to prevent,
                   or detect and correct misstatements on a timely basis. A material
                   weakness is a deficiency, or combination of deficiencies, in internal
                   control, such that there is a reasonable possibility that a material
                   misstatement of the Mint’s Custodial Schedule will not be
                   prevented, or detected and corrected on a timely basis.



                   Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 3
                   Gold and Silver Reserves as of September 30, 2011 and 2010
                   (OIG-12-002)
               Our consideration of internal control over financial reporting was
               for the limited purpose described in the Scope of Audits section
               above and was not designed to identify all deficiencies in internal
               control that might be deficiencies, significant deficiencies or
               material weaknesses. We did not identify any deficiencies in
               internal control over financial reporting related to the Custodial
               Schedule that we consider to be material weaknesses, as defined
               above.

Compliance with Laws and Regulations

               Our tests of the Mint’s compliance with certain provisions of laws
               and regulations disclosed no instances of noncompliance that
               would be reportable under Government Auditing Standards.


                                                  ******


               The Mint’s Financial Department has reviewed our report and
               agreed with our conclusions. Should you or your staff have any
               questions, you may contact me at (202) 927-5789, or a member
               of your staff may contact Ade Bankole, Manager, Financial Audits
               at (202) 927-5329. We appreciate the cooperation and courtesy
               extended to our staff.

               This report is intended solely for the information and use of the
               management of the Mint, the Department of the Treasury, the
               Office of Management and Budget, the Government Accountability
               Office, Congress, and KPMG LLP, and is not intended to be and
               should not be used by anyone other than these specified parties.
               However, this report is available as a matter of public record.



               Michael Fitzgerald
               Director, Financial Audits

               October 21, 2011


               Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 4
               Gold and Silver Reserves as of September 30, 2011 and 2010
               (OIG-12-002)
                SECTION II -

UNITED STATES MINT’S SCHEDULE OF CUSTODIAL
  DEEP STORAGE GOLD AND SILVER RESERVES
                   AS OF
        SEPTEMBER 30, 2011 AND 2010
                   DEPARTMENT OF THE TREASURY
                        UNITED STATES MINT
           SCHEDULE OF CUSTODIAL DEEP STORAGE GOLD AND
                          SILVER RESERVES
                  AS OF SEPTEMBER 30, 2011 AND 2010
                           (IN THOUSANDS)

CUSTODIAL DEEP STORAGE GOLD AND SILVER RESERVES
                                          2011                                      2010___

       Deep storage gold and silver reserves (Note 2)           $10,364,687       $10,364,687

       Liability to Treasury (Note 2)                        $10,364,687  $10,364,687
                                                             ___________ ___________
Net deep storage gold and silver reserves custodial position $         0 $          0


The accompanying notes are an integral part of this Schedule.




           Audit of the United States Mint’s Schedule of Custodial Deep Storage      Page 5
           Gold and Silver Reserves as of September 30, 2011 and 2010
           (OIG-12-002)
                DEPARTMENT OF THE TREASURY
                     UNITED STATES MINT
 NOTES TO THE SCHEDULE OF CUSTODIAL DEEP STORAGE GOLD AND
                       SILVER RESERVES
               AS OF SEPTEMBER 30, 2011 AND 2010

Note 1 Summary of Significant Accounting Policies

A.     Reporting Entity

       The United States Mint (Mint), established in 1792, is an integral part of the Department
       of the Treasury (Treasury). The mission of the Mint is to manufacture and distribute
       circulating coins, precious metal and collectible coins, and national medals to meet the
       needs of the United States. In addition to manufacturing circulating coins, the Mint
       manufactures numismatic products, including medals, proof coins, uncirculated coins,
       bullion coins (gold, platinum, and silver), and commemorative coins. These
       manufacturing operations are reported in the Mint’s financial statements. The Mint is
       also the custodian of a significant portion of the United States’ gold and silver reserves.
       The Mint uses the term custodial to identify gold and silver reserves held for Treasury.
       The custodial reserves are not assets of the Mint, but are assets of Treasury.

       The Mint’s Public Enterprise Fund (PEF) funds all custodial activities, including the
       protection of the United States’ gold and silver reserves.


B.     Basis of Presentation

       This Schedule has been prepared to report the deep storage gold and silver reserves
       custodial position of the Mint. The books and records of the Mint have served as the
       source of the information contained herein. This Schedule has been prepared in
       accordance with accounting principles generally accepted in the United States of America
       (GAAP) and Mint accounting policies.

       This Schedule includes all gold and silver classified by the Mint as “custodial deep
       storage reserves” as defined in Note 2. Deep storage is defined as that portion of the U.S.
       Government-owned gold and silver bullion reserve which the Mint secures in sealed
       vaults. Deep storage gold comprises the vast majority of the reserves and consists
       primarily of gold bars. This Schedule does not reflect any United States gold and silver
       reported by the Mint as working stock, or any reserve amounts due to be replenished by
       the PEF, nor does it include Treasury-owned gold held at Federal Reserve Banks (FRB).
       Upon approval from the Secretary of the Treasury, the PEF may use gold and silver from
       the custodial deep storage reserves to support its numismatic operations. The Mint did
       not use deep storage gold or silver reserves to produce coins in either FY 2011 or FY
       2010.




           Audit of the United States Mint’s Schedule of Custodial Deep Storage       Page 6
           Gold and Silver Reserves as of September 30, 2011 and 2010
           (OIG-12-002)
Note 2 Deep Storage Gold and Silver Reserves

       The gold and silver reserves reported in this Schedule are exclusive of the gold and silver
       reserves considered to be working stock in the Mint’s financial records and of the
       Treasury-owned gold held by the FRB. The custodial deep storage gold and silver
       reserves included in this Schedule are primarily in bar form, but may occasionally be in
       coin or other form. The custodial deep storage reserves also include foreign gold coins
       that have been held by Treasury for many years.

       The deep storage gold and silver reserves are reported in this Schedule at the values
       stated in 31 U.S.C. §5116 and §5117 (statutory rates) which are $42.2222 per fine troy
       ounce (FTO) of gold and no less than $1.292929292 per FTO of silver. Accordingly, the
       Mint values the silver at $1.292929292 per FTO. An offsetting liability is also reported
       for these assets.

       At September 30, 2011 and 2010, the market value of gold per the London Gold Fixing
       (PM) was $1,620.00 per FTO and $1,307.00 per FTO respectively. Deep storage gold
       inventories consisted of the following at September 30:


                       FTO                      Statutory Value          Market Value

       2011            245,262,897.04           $10,355,539,091          $397,325,893,205

       2010            245,262,897.04           $10,355,539,091          $320,558,606,431


       At September 30, 2011 and 2010, the market value of silver per the London Silver Fixing
       was $30.45 per FTO and $22.07 per FTO respectively. Deep storage silver inventories
       consisted of the following at September 30:

                       FTO                      Statutory Value          Market Value

       2011            7,075,171.14             $ 9,147,696              $215,438,961

       2010            7,075,171.14             $ 9,147,696              $156,149,027


       The combined custodial deep storage gold and silver reserves consisted of the following
       at September 30:


                                                Statutory Value          Market Value

       2011                                     $10,364,686,787          $397,541,332,166

       2010                                     $10,364,686,787          $320,714,755,458



           Audit of the United States Mint’s Schedule of Custodial Deep Storage      Page 7
           Gold and Silver Reserves as of September 30, 2011 and 2010
           (OIG-12-002)
APPENDICES
Appendix 1
Major Contributors to this Report




Financial Audits Division

Michael Fitzgerald, Director
Ade Bankole, Manager
Rafael Cumba, Auditor
Alicia Bruce, Referencer




Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 8
Gold and Silver Reserves as of September 30, 2011 and 2010
(OIG-12-002)
            Appendix 2
            Report Distribution




   The Department of the Treasury

            Secretary of the Treasury
            Treasurer of the United States
            Assistant Secretary for Management and Chief Financial
            Officer
            Deputy Chief Financial Officer
            Director, Office of Accounting and Internal Control

   United States Mint

            Director
            Deputy Director
            Chief Financial Officer

   Independent Public Accountant

            KPMG LLP




Audit of the United States Mint’s Schedule of Custodial Deep Storage   Page 9
Gold and Silver Reserves as of September 30, 2011 and 2010
(OIG-12-002)
